37
APPENDIX 1: CITATIONS

The Ninth Amendment of the Constitution
of the United States provides:
The enumeration in the Constitution, of
certain rights, shall not be construed to
deny or disparage others retained by
the people.
The Fourteenth Amendment of the
Constitution of the United States provides,
in relevant part:
[N]or shall any State deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws.
The Indiana Constitution, Article 1,
Section 12 provides:
All courts shall be open; and every
person, for injury done to him in his
person, property, or reputation, shall
have remedy by due course of law.
Justice shall be administered freely,
and without purchase; completely, and
without denial; speedily, and without
delay.

38
The Indiana Constitution, Article 7,
Section 6 provides in relevant part:
...provide in all cases an absolute right
to one appeal...
The Indiana Constitution, Article 1,
Section 23 provides:
The General Assembly shall not grant
to any citizen, or class of citizens,
privileges or immunities, which, upon
the same terms, shall not equally belong
to all citizens.
IC § 31-14-13-2 provides, in relevant part:
"The court shall determine custody in
accordance with the best interests of the
child. In determining the child's best
interests, there is not a presumption
favoring either parent. The court shall
consider all relevant factors, including
the following:..."

(7) Evidence of a pattern of domestic or
family violence by either parent.

39
IC § 31-17-2-6 provides:
Custody proceedings must receive
priority in being set for hearing.
IC § 34-25.5-7-1 provides, in relevant part:
“Writs of habeas corpus shall be granted
in favor of parents, guardians, and
spouses to enforce the rights and for the
protection of minors...”
Indiana Senate Bill 87, Introduced on
January 3, 2019 and died in committee,
sates in relevant part:
Physical custody and parenting time.
Adds a rebuttable presumption in child
custody proceedings that: (1) joint
physical custody is in the best interests
of the child; and (2) equal parenting
time is in the best interests of the child.
Provides that the default joint physical
custody or parenting time schedule is to
alternate weekly physical custody of the
child, unless the parents submit an
alternative schedule that is approved by
the court.

IC § 31-15-7-5, Presumption of just and
reasonable division of property provides, in
part:
The court shall presume that an equal
division of the marital property between
the parties is just and reasonable.

40
However, this presumption may be
rebutted by a party who presents
relevant evidence, including evidence
concerning the following factors, that an
equal division would not be just and
reasonable:
(1) The contribution of each spouse to
the acquisition of the property,
regardless of whether the contribution
was income producing.
(2) The extent to which the property
was acquired by each spouse:
(A) before the marriage; or
(B) through inheritance or gift.
Indiana Parenting Time Guidelines,
Section 1(A)(3) provides, in relevant part:
Both parents shall have reasonable
phone access to their child. Telephone
communication with the child by either
parent to the residence where the child
is located shall be conducted at
reasonable hours, shall be of reasonable
duration, and at reasonable intervals,
without interference from the other
parent.
Examples of unacceptable interference
with communication include a parent
refusing to answer a phone or refusing
to allow the child or others to answer; a
parent recording phone conversations
between the other parent and the child;

41
turning off the phone or using a call
blocking mechanism or otherwise
denying the other parent telephone
contact with the child.
Indiana Evidence Rule 106 provides:
If a party introduces all or part of a
writing or recorded statement, an
adverse party may require the
introduction, at that time, of any other
part—or any other writing or recorded
statement—that in fairness ought tq be
considered at the same time.

Indiana Trial Rule 53.1(A) provides:
Time limitation for ruling. In the event
a court fails for thirty (30) days to set a
motion for hearing or fails to rule on a
motion within thirty (30) days after it
was heard or thirty (30) days after it
was filed, if no hearing is required, upon
application by an interested party, the
submission of the cause may be
withdrawn from the trial judge and .
transferred to the Supreme Court for
the appointment of a special judge.
Indiana Trial Rule 53.1(E) provides, in
relevant part:
Procedure for withdrawing submission.
Upon the filing by an interested party of
a praecipe specifically designating the
motion or decision delayed, the Clerk of

42
the court shall enter the date and time
of the filing on the praecipe, record the
filing in the Chronological Case
Summary under the cause, which entry
shall also include the date and time of
the filing of the praecipe, and promptly
forward the praecipe and a copy of the
Chronological Case Summary to the
Chief Administrative Officer (CAO)of
the Indiana Office of Judicial
Administration (10JA). The CAO shall
determine whether or not a ruling has
been delayed beyond the time limitation
set forth under Trial Rule 53.1 or 53.2.

Indiana Trial Rule 63(B)(2) provides:
When a person submits a verified
petition to the Supreme Court stating
that a judge of a court (a) is unable to
perform the duties of the office because
of disability or (b) has failed, refused, or
neglected to perform these duties, the
Supreme Court shall issue an order to
the judge, accompanied by the petition,
requiring the judge to show cause as to
why a judge pro tempore should not be
appointed to perform the duties of the
office. The order shall set a date for
response and indicate that the judge
may request a hearing. The order may
include a date for such a hearing on or
after the date set for response. The
order shall be served at least ten (10)
days before the date set for response.

43

Indiana Trial Rule 60(B) provides, in
relevant part:
Mistake-Excusable neglect--Newly
discovered evidence-Fraud, etc. On
motion and upon such terms as are just
the court may relieve a party or his
legal representative from a judgment,
including a judgment by default, for the
following reasons:
(1) mistake, surprise, or excusable
neglect;
(2) any ground for a motion to correct
error, including without limitation
newly discovered evidence, which by
due diligence could not have been
discovered in time to move for a motion
to correct errors under Rule 59;
(3) fraud (whether heretofore
denominated intrinsic or extrinsic), ,
misrepresentation, or other misconduct
of an adverse party;

(8) any reason justifying relief from the
operation of the judgment, other than
those reasons set forth in subparagraphs (1), (2), (3), and (4).
Indiana Appellate Rule 31 provides, in
part:
Statement Of Evidence When No
Transcript Is Available

44
A. Party's Statement of Evidence. If
no Transcript of all or part of the
evidence is available, a party or the
party's attorney may prepare a verified
statement of the evidence from the best
available sources, which may include
the party's or the attorney's recollection.
The party shall then file a motion to
certify the statement of evidence with
the trial court or Administrative
Agency. The statement of evidence shall
be submitted with the motion.
Federal Rule of Appellate Procedure 10(c)
provides:
(c) Statement of the Evidence When the
Proceedings Were Not Recorded or
When a Transcript Is Unavailable. If
the transcript of a hearing or trial is
unavailable, the appellant may prepare
a statement of the evidence or
proceedings from the best available
means, including the appellant's
recollection. The statement must be
served on the appellee, who may serve
objections or proposed amendments
within 14 days after being served. The
statement and any objections or
proposed amendments must then be
submitted to the district court for
settlement and approval. As settled and
approved, the statement must be
included by the district clerk in the
record on appeal.

45
The Illinois Domestic Violence Act of 1986,
750 ILCS 60/103(7), provides, in part:
(7) "Harassment" means knowing
conduct which is not necessary to
accomplish a purpose that is reasonable
under the circumstances; would cause a
reasonable person emotional distress;
and does cause emotional distress to the
petitioner. Unless the presumption is
rebutted by a preponderance of the
evidence, the following types of conduct
shall be presumed to cause emotional
distress:

(v) improperly concealing a minor child
from petitioner, repeatedly threatening
to improperly remove a minor child of
petitioner's from the jurisdiction or from
the physical care of petitioner,
repeatedly threatening to conceal a
minor child from petitioner, or making a
single such threat following an actual or
attempted improper removal or
concealment, unless respondent was
fleeing an incident or pattern of
domestic violence;

The Illinois Domestic Violence Act of 1986,
750 ILCS 60/220(a)(l), provides, in part:
Sec. 220. Duration and extension of
orders.
(a) Duration of emergency and interim
orders. Unless re-opened or extended or

46
voided by entry of an order of greater
duration:
(1) Emergency orders issued under
Section 217 shall be effective for not less
than 14 nor more than 21 days;

47
APPENDIX 2: TRIAL COURT FINAL DECREE

DISSOLUTION DECREE
IN THE BROWN CIRCUIT COURT
CAUSE NUMBER: 07C01-1610-DR-000336
Filed APR 30 2019
IN RE: THE MARRIAGE OF
WENDY A. WROE, Petitioner
vs.

PETER N. MYMA, Respondent.

This cause having come before the Court for final
hearing, more than 60 days after the filing of the
Verified Petition for Dissolution of Marriage. The
Petitioner appeared in person and by counsel,
Wanda Jones and Jay Charon, the Respondent
appeared in person pro se; the Court considered
all pending motions, the Wile's petition and
Husband's counter petition; witnesses sworn,
evidence seen and heard and the Court having
conducted an in camera interview with the
oldest minor child:

48
THE COURT NOW FINDS as follows:

1. The parties were married on or about
August: 22, 2005. Dissolution was filed on
October 5, 2016.
2. There has been an irretrievable breakdown
of the marriage,
3. That Petitioner had been a resident of
Brown County for more than three months
immediately preceding the filing of the petition
for dissolution, and a resident of Indiana for
more than six months immediately preceding the
filing of the petition for dissolution.
4. There were two children born during the
marriage, namely, Izolda "Zola" date of birth
November 28, 2009; and Lett; date of birth
September 10, 2013,
5.

Wife is not now pregnant.

6. The parties have two residences, one in
Skokie, Illinois in which Mr., Myma lives and
one it Nashville, Indiana, in which Ms. Wroe did
live for a period, of time, however it is being
remodeled and she is currently living with her
new significant other, John Lorrick (unsure of
spelling) in Indianapolis.
7. The Nashville residence was purchased with
money loaned to the parties by Ms. Wroe's
parents. The loan was for approximately
$100,000.00, the purchase price of the house was
approximately $74,000.00. The left over money
went towards fixing up the Nashville home.

49
8. Mr. Myma withdrew all the money out of
his retirement accounts, he says to support the
family.
9. During the marriage, Mr. Myma did not hold
gainful employment. Ms. Wroe was the primary
source of financial support for the family. Mr.
Myma attempted at trial to argue that Ms. Wroe
was somehow neglectful because she was often
absent; as she was doing her best to support
their family financially, this argument fails in
this Court's opinion.
10. Suffice it to say that both of these parties
are somewhat eccentric, unique types of people.
This case has been very contentious and has
been unusually litigious. It has involved an
abundance of motions filed by Husband, Mr.
Myma, (many of which this Court believes to be
frivolous), interlocutory appeal (argued to be as of
right) of various issues, three different judges,
multiple attempts to remove the judge(s), notice
of federal lawsuits filed against presiding judges,
lawsuit and protective order filed against the
Petitioner by the Respondent, in Illinois (which
were subsequently dismissed), DCS investigations,
and so many other filings that it would not be
reasonable to attempt to list them all in this
decree. It is important to note that though Mr.
Myma is not an attorney and chose to represent
himself, his abilities as a litigator in this case
have been far beyond the usual pro se litigant
to say the least. However, it is this Court's
opinion that Mr. Myma, rather than merely
utilizing the Court system to zealously represent
himself to the best of his ability, he has abused
the legal system in an effort to delay the

50
proceedings and harass the Petitioner. The final
hearing alone in this case was in excess of three
full court days (the excess being the first final
hearing date of January 3, 2019 during which
after hearing partial evidence, the matter was
continued due to discovery issues that were
addressed in an order from said hearing). The
other three dates were March 8, 2019, March 29,
2019, and April 12,2019.
11. Mr. Myma was ordered provisionally to pay
child support in the amount of $79 per week. He
has paid none.
12. Father has conducted surveillance on Mother
at times during the provisional period.
13. Mr. Myma has not exercised parenting time
for nearly two years.
14. Mr. Myma does make attempts to telephone
his children. There have been times that Mr.
Lorrick would harass Mr. Myma verbally when
he would call, which usually resulted in Mr.
Myma hanging up.
15. When Mr. Myma did have the children, at
least during the period in which he obtained a
protective order against Ms. Wroe and had the
children in his custody, it appears (hat he often
would record interactions with Zola with an
intent to prepare for litigation.
16. Mr. Myma was ordered to complete a
parenting class provisionally, but has not yet
done so as far as this Court is aware.

51
17. Mr. Myma uses inflammatory words such as
abduction (referring to her taking the children to
Indiana) and has implied that Mr. Lorrick
allegedly giving the children bubble baths (which
was denied by Ms. Wroe of having ever
occurred) is equivalent to sexual molestation.
18. Ms. Wroe's conduct has not been exemplary
during this process either. She removed property
from the Nashville home and stored it in Mr.
Lorrick's home, against the temporary restraining
order issued earlier in this cause. She made any
parenting time that Mr. Myma could have had
very difficult for him, and has tolerated Mr.
Lorrick, her significant other, whom she knows
Mr. Myma does not care for, verbally abusing
Mr. Myma during his attempts at phone
conversations with the children. Ms. Wroe and
Mr. Lorrick get upset at Mr. Myma when he
calls for the children, and instead of engaging in
casual conversation simply says "Zola" or "Leif'
Instead of ignoring it and just putting the kids
on the phone, the verbal harassment would
sometimes ensue, thus making an already bad
situation worse.
19. The parties differ greatly regarding the
parenting of the children.
20. The parties are unable to communicate
civilly.
21. This case is not appropriate for joint legal
custody. 22. The Court has considered all of the
statutory factors regarding the child custody
decisions under Indiana Code 31-14-13-2, which
reads as follows;

52
The court shall determine custody in accordance
with the best interests of the child, In
determining the child's best interests, there is not
a presumption favoring either parent. The court
shall consider all relevant factors, including the
following:
(1) The age and sex of the child,
(2) The wishes of the child's parents.
(3) The wishes of the child, with more
consideration given to the child's wishes if the
child is at least fourteen (14) years of age.
(4) The interaction and interrelationship of the
child with: (A) the child's parents; (B) the
child's siblings; and (C) any other person who
may significantly affect the child's best interest.
(5) The child's adjustment to home, school, and
community.
(6) The mental and physical health of all
individuals involved.
(7) Evidence of a pattern of domestic or family
violence by either parent.
(8) Evidence that the child has been cared for
by a de facto custodian, and if the evidence is
sufficient, the court shall consider the factors
described in section 2.5(b) of this chapter.
22. The Court finds the following provisions to
be in the best interests of the children.
Additionally, the Court finds that at this time,
unrestricted parenting time with the Father

53
would significantly impair the children's physical
health and/or emotional well-being.
23. Pertaining to property, the Court finds the
following property provisions to be fair and
equitable.

IT IS THEREFORE ORDERED, ADJUDGED
AND DECREED by the Court:
1. That the marriage of Wendy A. Wroe and
Peter N. Myma shall be and hereby is dissolved.
2. It is in the best interests of the minor
children that the Petitioner/Mother shall have
sole legal and primary physical custody of both
minor children.
3. The Respondent/Father shall have parenting
time as follows: For the next six months,
following the date of this decree, Father's
parenting time shall consist of supervised,
therapeutic counseling sessions designed to re­
acquaint the children with their Father and
repair the parent/child relationship to a point
that the children are comfortable with
unsupervised parenting time. These sessions shall
be at Father's expense and shall take place no
more than 3 times per month (according to the
counselor's schedule) but must take place at
least once per month for the next six months
before the Court will consider modification. The
session shall take place through Crosswinds
Indianapolis counseling office located at. 3520 N.
Washington Blvd., Indianapolis, IN 46205 Phone:
317-343-8355. Father shall contact said office

54
within 10 days of this decree to arrange the first
session. Both parties shall cooperate with the
counseling plan and shall present the therapist
with a copy of this decree. Both parties shall
sign any releases necessary for the counselor to
conduct the sessions and to provide a report: to
the Court. Mother shall ensure that the minor
children are present for the sessions. Father
shall communicate to Mother, at least one week
in advance, of the dates and times of his
sessions.
4. Additionally, Father shall be entitled to daily
phone calls with the children between the hours
of 6pm and 8pm for up to 30 minute in duration.
The phone calls shall not be interfered with by
Mother or Mr. Lorrick. So long as both parties
have the equipment to do FaceTime or Skype
sessions, then Father may do that instead of
telephone calls if he chooses.
5. Whether or not Father engages in
conversation or merely says "Zola" or "Leif when
the phone is answered, the phone shall be
promptly given to the requested child without
comment or harassment from Mother or Mr.
Lorrick.
6. The parties shall not argue or speak poorly
about the other in front of the children. Nor
shall they discuss their issues/court case with
the children.
7. Once Father has completed the six-month
therapeutic counseling period, and has had a
minimum of one session per month, he may
notify the Court by motion and the Court will

55
set a status hearing to determine if parenting
time should be modified. Once the hearing date
is set, Father shall request that the counselor
provide this Court with a report containing any
recommendations to be completed no later than
5pm on the Friday before the status hearing.
8. Father shall pay child support to Mother in
the amount of $77 per week beginning the first
Friday after the date of this decree and
continuing each Friday thereafter. He shall pay
through the Indiana State Central Collection
Unit, INSCCU, P.O. Box 7130, Indianapolis,
Indiana 46207-7130, http://www.insccu.comy/. In
addition to the support amount, he shall pay an
additional $10 per week towards his arrears ($79
• per week since the date of the provisional order)
until they are paid in full.
9. Both parties shall carry the minor children
on any future health insurance plans if they
become available to them through their employer
at a reasonable cost. It is the Court's
understanding that the children are currently
covered under Mr. Lorrick's health insurance
plan. If not, Mother shall promptly apply for
Medicaid or otherwise attempt to obtain health
insurance coverage for the children.
10. Regarding uninsured medical expenses,
Mother shall be responsible for the first $477.36
of any yearly out of pocket uninsured healthcare
expenses with any remaining yearly uninsured
expenses being divided between the parties
evenly (50%-50%). Once she has paid the first
$477.36, she shall provide documentation of such
to Father and she must also provide him with

56
copies of any medical bills for which she is
requesting he pay his portion within 30 days of
receiving said bill. Father shall then have 30
days to either pay his portion or contact the
provider and make payment arrangements.
11. Mother shall be entitled to any federal and/or
state tax benefits regarding Zola each year and
Father shall be entitled to any federal and/or
state tax benefits regarding Leif each year.
Father shall be entitled to his benefits only so
long as he is at least 95% current on his child
support obligation by January 31 of the year in
which he is filing (example to claim for tax
year 2020, he would need to be 95% current in
bis 2020 child support obligation by January 31,
2021). If he is not at least 95% current as
described, then Mother shall get both exemptions
for that year. Once Zola is emancipated, then the
parties shall alternate Leif with Mother getting
odd numbered years and Father getting even
numbered years (95% rule would still apply).
12. The parties shall retain the personal property
that they currently have in their possession,
holding the other harmless.
13. Father shall receive the Skokie, Illinois home
and Mother shall receive the Nashville, Indiana
home. Each party shall be responsible for any
costs associated with said ownership, holding the
other harmless. If the other party's name is
currently on any mortgage or deed, the receiving
party shall have six months from the date of
this decree to refinance and/or remove the other
party's name from said mortgage or deed. If
unable to comply, then at the request of either

57
party, a hearing will be held to determine if
further action is necessary. Each party shall
comply with any necessary signatures or
documents needed to comply with this provision.
14. Personal property that the Court was not
made aware of shall be retained by the party
currently in possession of the property unless the
parties otherwise agree.
15. The parties shall retain any vehicles
currently in their possession and shall be
responsible for the costs associated with said
ownership, holding the other party harmless for
said costs, if any.
16. The parties shall be responsible for any debts
in their own name holding the other harmless.
Any joint debts, in both of their names acquired
prior to the date of filing for dissolution shall be
divided evenly.
17. Costs of this action are now paid.
18. All other pending motions and/or requests, if
any, not specifically addressed herein are denied.

58
SO ORDERED THIS APRIL 30, 2019.
Is/

James D. Worton, Special Judge
Brown Circuit Court
Copies to:
Wanda Jones and Jay Charon
Peter Myma
GAL
Prosecutor

59
APPENDIX 3: DENIAL OF APPEAL
REHEARING

IN THE COURT OF APPEALS OF INDIANA
Peter Myma,
Appellant,
v.
Wendy Wroe,
Appellee.

Court of Appeals Case No.l9A-DR-01322
FILED Feb 26 2020, 12:52 pm
CLERK
Indiana Supreme Court
Court of Appeals
and Tax Court
Order
[1] This appeal was dismissed on January 17, 2020.
Appellant, pro se, has now filed a Verified
Emergency Motion to Reinstate Appeal.
[2] Having reviewed the matter, the Court finds and
orders as follows:
[3] Appellant's Verified Emergency Motion to
Reinstate Appeal is denied.

60

[4] Ordered 2/26/2020
Mathias, J., Sharpnack, Darden, Sr.JJ., concur.
For the Court,
/s/

/Illegible/
Chief Judge

61
APPENDIX 4: DENIAL OF PETITION TO
TRANSFER

In The Indiana Supreme Court
Peter Myma,
Appellant,
v.
Wendy Wroe,
Appellee.

Court of Appeals Case No.l9A-DR-01322
Trial Court Case No.07COM610-DR-000336

FILED Apr 01 2020, 3:58 pm
CLERK
Indiana Supreme Court
Court of Appeals
and Tax Court
Order

The Court of Appeals granted Appellee's motions to
dismiss this appeal on January 17,2020. Accordingly,
a petition for rehearing was due no later than
February 17, Ind. Appellate Rules 25, 54(B); or, if
rehearing was not sought, a petition to transfer was
due no later than March 2, App. R. 57(C)(1). On
February 18, Appellant filed a "Verified Emergency
Motion to Reinstate Appeal" in the Court of Appeals,
which was denied on February 26. Then, Appellant

62
tendered a petition to transfer on March 3, which the
Clerk received without filing because it was late and
defective (because it included impermissible
attachments).
Appellant has now tendered a corrected petition to
transfer and requests leave to file it belatedly. The
motion argues that various actions by Appellee and
the trial court have delayed progress of this appeal
generally, and it argues that the merits of the appeal
are worthy of being addressed on the merits. But
beyond stating that Appellant "is a displaced
homemaker and not an attorney," the motion offers
no explanation for the specific failure at issue—
Appellant's untimely filing of his petition to transfer.
The Court is mindful that procedural rules are
"merely a means for achieving the ultimate end of
orderly and speedy justice" and are not ends in
themselves. American States Ind. Co. v. State ex rel.
Jennings, 258 Ind. 637, 640, 283 N.E.2d 529, 531
(1972). But those rules are nevertheless "extremely
important" to securing those aims. Id. And while it
appears actions outside Appellant's control have
contributed to some of the delays in this appeal, it
also appears that his own missteps have significantly
contributed as well.
Appellate Rule 57(C) provides that "no extension of
time shall be granted" to file a petition to transfer,
and the Court in this instance declines to deviate
from that clear mandate.
Being duly advised, the Court DENIES Appellant's
"Motion for Leave to Amend Belated Petition." This
appeal is at an end.

63

Done at Indianapolis, Indiana, on 4/1/2020.
Is/

Loretta H. Rush
Chief Justice of Indiana

I
!

